          U.S. Department of Energy
          Office of Inspector General
          Office of Audits and Inspections




Audit Report

The Department of Energy's $12.2 Billion
Waste Treatment and Immobilization
Plant – Quality Assurance Issues – Black
Cell Vessels




DOE/IG-0863                                  April 2012
                                  Department of Energy
                                    Washington, DC 20585
                                          April 25, 2012


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         $12.2 Billion Waste Treatment and Immobilization Plant – Quality
                         Assurance Issues – Black Cell Vessels"

INTRODUCTION

The Office of Inspector General received allegations concerning aspects of the quality assurance
program at the Department of Energy's $12.2 billion Waste Treatment and Immobilization Plant
(WTP) project in Hanford, Washington. The WTP is a key element in the Department's strategy
for remediating its significant legacy inventory of high-level nuclear waste.

In brief, it was alleged that quality assurance records for critically important "black cell" waste
processing vessels were not traceable to work performed. To shield plant workers from intense
radiation that will occur during WTP operations, processing vessels will be located in sealed
compartments called black cells. Black cells are enclosed rooms where inspection, maintenance,
repair or replacement of equipment or components is impracticable because there is no
engineered access. Additionally, there are other vessels in the WTP facilities that are considered
"hard-to-reach" because of location and expected difficulty of performing repairs or
maintenance. Processing vessels in black cells and hard-to-reach areas must last for WTP's
40-year expected design life without in-service inspection and maintenance.

In response to the allegations, we initiated an audit to determine whether the Department was
meeting quality assurance requirements for the fabrication of vessels located in black cells and
hard-to-reach areas of WTP. The audit focused on vessels that were received and installed prior
to mid-2005, as additional vessels of this type have not been received since that time. The
review covered, as well, the quality assurance and oversight programs that were in place in that
same time frame.

RESULTS OF AUDIT

Our review substantiated the allegation. In short, we found that the Department had procured
and installed vessels in WTP that did not always meet quality assurance and/or contract
requirements. For the vessels that we reviewed, we identified multiple instances where quality
assurance records were either missing or were not traceable to the specific area or part of the
vessel. We also found that the Department paid the WTP contractor a $15 million incentive fee
for production of a vessel that was later determined to be defective. Although the Department
demanded return of the fee, it did not follow up on the matter and the fee was never reimbursed.
                                                          2


The importance of black cells and hard-to-reach components cannot be over stated. Premature
failure of these components could potentially impact safety, contaminate large portions of a
multi-billion dollar facility and interrupt waste processing for an unknown period of time. For
these reasons, we have made several recommendations designed to strengthen quality assurance
controls at WTP. We have also recommended a more intense effort to recover contractor fee for
the nonconforming vessel.

This memorandum and the attached report describes the history of our involvement in this issue,
our conclusions and findings, recommendations for corrective actions, and the response of
Departmental managers to our work.

BACKGROUND

Bechtel National, Inc. is responsible for construction of the Department of Energy's $12.2 billion
WTP. The WTP mission is to treat and encapsulate in glass the majority of the 53 million
gallons of waste that amassed from decades of plutonium production at the Department's
Hanford Site.

WTP vessels are required to be designed, fabricated, tested and inspected in accordance with
requirements established by The American Society of Mechanical Engineer's Boiler and
Pressure Vessel Code. To reduce the risk of vessel failure, additional requirements are imposed
on the fabrication of black cells and hard-to-reach areas including enhanced material traceability,
nondestructive examination (NDE 1) and material identification testing. The WTP also requires a
number of the vessels to comply with The American Society of Mechanical Engineer's Quality
Assurance Program Requirements for Nuclear Facilities, a consensus standard that requires,
among other things, that quality assurance records are sufficient to demonstrate that work meets
specifications; qualified individuals performed all work; materials used were appropriate for
nuclear activities; and, quality records are traceable to the parts in a manner that assures that
identification is established and maintained.

FINDINGS AND CONCLUSIONS

Our review of WTP related allegations revealed a number of instances where these quality
assurance requirements were not completely followed for processing vessels installed in black
cells and/or hard-to-reach areas. Specifically, we found that Bechtel had not obtained or
maintained:

    •    (1) Weld maps, identifying the specific location of each weld; (2) information on welding
         procedures, the qualifications of the welder, materials used in the vessels and NDEs; and,
         (3) positive material tests, which ensure that the materials used to fabricate the vessels
         were compatible with expected operating conditions. Our review of available supporting
         evidence also revealed that not all required records were available to demonstrate that
         components or welds were tested. Material and services were also not traceable on a
         number of vessels. This occurred despite the vessel subcontract requirements for
         information availability to ensure that vessel fabrication met technical specifications; and,

1
 NDE methods, such as radiography (x-rays) or ultrasonic, are used to detect voids, lack of fusion, or other
imperfections that would cause the weld to fail during operations.
                                               3


   •   Radiographs showing the integrity of welds, as required by its contract. Bechtel allowed
       fabricators to use an alternative NDE procedure, ultrasonic inspection, that did not
       produce independently verifiable records such as would be available with the use of
       radiographs. These records were important since Bechtel's quality assurance inspectors
       who observed the ultrasonic inspections performed by the fabricators were not qualified
       to interpret test results per the contract's technical specification. Although ultrasound
       inspection may be appropriate for certain conditions and is allowed by Bechtel's contract
       requirements with its suppliers, we found no evidence that two of the subcontractors
       requested or received Bechtel's approval for the use of alternative NDE methods, as
       required.

In addition, we noted that the Department may have overpaid incentive fee to Bechtel based on
its level of performance. Specifically, Bechtel was paid $30 million in incentive fee for the
delivery and installation of vessels into WTP facilities. When the Department learned that one of
the vessels was nonconforming, it instructed Bechtel to return $15 million in performance fee.
However, neither the Department's Office of River Protection nor Bechtel could provide
evidence that the fee was returned to the Department.

Weaknesses in quality assurance records associated with black cell and hard-to-reach processing
vessels occurred because of deficiencies in Bechtel's implementation of its quality assurance
program and a lack of Department oversight. Specifically, Bechtel employed inspectors located
at the contractor locations to witness work performed and execute a progressive and final review
and approval of quality assurance record packages. However, in our judgment, because the on-
site inspectors lacked the welding qualifications to interpret weld NDE results, Bechtel's
acceptance process was inadequate. Additionally, Bechtel's receipt and inspection procedures
were deficient in that reviews of quality assurance records that accompanied the vessels were
limited to basic procedures, such as determining that the expected numbers of pages of
documentation were received. Also, the Department failed to identify weaknesses in Bechtel's
processes that allowed the deficiencies to occur; raising questions as to the quality of the
Department's contract administration and oversight.

The matters discussed in this report come at a time when concerns about safety at WTP have
been raised and the Department is working to ensure a proactive safety culture at WTP. To its
credit, the Department took prompt action on some of the issues identified during our audit. For
instance, after receiving the original June 2010 allegation, the Department conducted technical
surveillances in August 2010, that confirmed some of the issues in the complaint and required
Bechtel to take steps to correct the deficiencies and conduct a review to determine the extent of
the condition. After our audit identified additional concerns that had not been identified by
Bechtel or through the Department's surveillance, the Department performed another
surveillance that confirmed some of the findings identified in this audit report. On
September 15, 2011, the Department ordered Bechtel to correct these additional deficiencies. On
November 17, 2011, the Department concurred with the corrective action plan to address these
additional deficiencies, actions which included a review of quality documentation associated
with received black cell and hard-to-reach area vessels. It further required a review of
programmatic changes implemented after these vessels were received to ensure adequacy. While
these actions are encouraging, we are concerned that the prior reviews performed by Bechtel and
the Department failed to fully identify the extent of the problems with the missing or incomplete
quality assurance documents, and that weaknesses in oversight still exist.
                                                4


MANAGEMENT REACTION

The Office of Environmental Management concurred with the report's recommendations and its
comments were generally responsive to our recommendations. Management officials noted
improvements that have been made since the last vessels were delivered and outlined a number
of corrective actions that have recently been initiated. Management disagreed with our assertion,
however, that Bechtel's on-site inspectors needed to possess the same technical qualifications as
the subcontractor welders whose work they were inspecting. While we acknowledge that
governing criteria do not mandate that on-site inspectors possess the same qualifications, we
believe that given the importance of the vessel welds to the effective performance of WTP and
the extreme consequences associated with vessel failures, it would be prudent to require that on-
site inspectors be fully qualified to reduce the risk of fabrication errors.

Management comments are included in their entirety in Appendix 3.

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Under Secretary for Nuclear Security
      Senior Advisor for Environmental Management
      Chief Health, Safety and Security Officer
      Chief of Staff
REPORT ON THE DEPARTMENT OF ENERGY'S $12.2 BILLION
WASTE TREATMENT AND IMMOBILIZATION PLANT – QUALITY
ASSURANCE ISSUES – BLACK CELL VESSELS



TABLE OF
CONTENTS


Quality Assurance Records

Details of Finding                                   1

Recommendations                                      9

Comments                                             10


Appendices

1. Objective, Scope and Methodology                  12

2. Prior Audit Reports                               14

3. Management Comments                               15
THE DEPARTMENT OF ENERGY'S $12.2 BILLION WASTE
TREATMENT AND IMMOBILIZATION PLANT – QUALITY ASSURANCE
ISSUES – BLACK CELL VESSELS
QUALITY ASSURANCE   In June 2010, the Office of Inspector General (OIG) received an
RECORDS             allegation that quality assurance records for the "black cell"
                    processing vessels were not traceable to work performed at the
                    Waste Treatment and Immobilization Plant (WTP). Because this
                    was a concern that could potentially affect the safety of the WTP
                    workforce, the OIG initially contacted the Department of Energy's
                    (Department) Office of Health, Safety and Security. On
                    August 3, 2010, that office asked the Department's Office of River
                    Protection (ORP) to assess whether welds on containment vessels
                    in the black cells at WTP could be verified to be in compliance
                    with specifications. Accordingly, ORP conducted surveillance on
                    one vessel from each of the five subcontractors hired to fabricate
                    vessels for WTP to verify that all nondestructive examination
                    (NDE) of welds and weld records met Bechtel National, Inc.
                    (Bechtel) contract requirements.

                    Based on ORP's review of the five vessels, some of the issues in
                    the complaint were confirmed. The surveillance identified a
                    missing NDE record that would have documented tests performed
                    to ensure weld quality as well as a missing weld map, a diagram
                    that helps establish traceability of quality assurance records to
                    specific areas or parts of the vessel. As a result, ORP ordered
                    Bechtel to correct the deficiencies identified in the surveillance
                    report, and perform an extent of condition assessment in order to
                    ascertain whether the problems were limited to the specific vessel,
                    or represented a broader problem. Bechtel's extent of condition
                    review evaluated 3 of 17 vessels provided by one subcontractor
                    and concluded that the missing NDE record was an isolated
                    incident. However, Bechtel also concluded that weld maps were
                    missing for all 17 vessels provided by that subcontractor, which
                    included 12 that were located in black cells.

                    In response to concerns raised in the allegation, we initiated this
                    audit to provide a more comprehensive review of whether the
                    Department was meeting quality assurance requirements for the
                    fabrication of black cell and hard-to-reach processing vessels for
                    WTP. This review focused on vessels that were received and
                    installed prior to June 2005, because additional black cell vessels
                    have not been received since that time. The quality assurance,
                    supplier qualification and oversight programs reviewed were also
                    those in place for that same time period. During fieldwork, we
                    identified additional concerns that had not been identified by the
                    Department's surveillance or Bechtel's extent of condition reviews.
                    After we discussed these concerns with the ORP representatives,
                    ORP performed another surveillance that confirmed the findings


Page 1                                                             Details of Finding
         identified in this audit report. Our review included an examination
         of seven vessels, which were reviewed for compliance with quality
         assurance requirements contained in Bechtel's contract, to
         determine whether the Department was ensuring that these
         requirements were met for the fabrication of black cell and hard-to-
         reach processing vessels for WTP.

         Our review results showed that Bechtel had not met its contract
         requirements for the fabrication of black cell and hard-to-reach
         processing vessels. Specifically, of the seven vessels:

                NDE records, which provide evidence that welds met
                specifications, were missing for two vessels;

                Quality assurance records providing traceability of weld
                filler material, welding procedures, welders and NDEs to
                the associated area of use or part of the vessel were
                incomplete for six vessels; and,

                Positive Materials Identification (PMI) records, which
                provide evidence that materials and components underwent
                testing, were missing four tests for two vessels. In addition
                the subcontractor requirement to develop PMI maps could
                not be verified or was incomplete for all seven vessels
                reviewed.

         Further, two of Bechtel's subcontractors deviated from their
         contract requirements for weld examination without appropriate
         authorization.

         In our judgment, the identification of missing quality assurance
         records for materials and components used in black cell and hard-
         to-reach vessels was a serious matter. We concluded that the
         absence of such records reduced the Department's ability to
         demonstrate that WTP can begin operations and efficiently
         complete the mission.

                       Nondestructive Examination of Vessels

         Two of the seven vessels we reviewed were missing certain NDE
         records that provide evidence that welds met specifications. The
         purpose of NDE is to provide confidence that welds are less likely
         to fail during WTP's expected 40-year design life. The Department
         required that specific welds essential to containing the radioactive
         waste are examined. NDEs of welds are used to detect voids, lack
         of fusion or other imperfections that may cause a weld to fail
         during operations.

Page 2                                                  Details of Finding
         Specifically, we found that NDE records were missing for vessels
         supplied by two different Bechtel suppliers, Harris Thermal
         Transfer Products (Harris) and Joseph Oat Corporation. Regarding
         Joseph Oat Corporation, we could not identify NDE records of the
         welds for top and bottom heads of the vessel. Follow-up action by
         ORP substantiated the missing quality assurance records and also
         identified another missing NDE record for a nozzle. Bechtel
         attempted to obtain the missing NDE records for this vessel from
         the fabricator, but was unable to because the fabricator did not
         maintain the records as required by its quality assurance program.
         Further, the heads of the vessel were fabricated by a subcontractor
         that had purged the NDE records because the code retention period
         had expired.

         Prior to our audit, ORP had conducted a review in response to the
         initial allegation that determined that one vessel, provided by
         Harris, was also missing NDE records for one of the vessel's
         nozzles. Subsequently, Bechtel conducted an extent of condition
         review that analyzed 3 of 17 vessels provided by Harris. Bechtel
         did not identify any additional missing NDE records for the three
         vessels reviewed and concluded it was an isolated incident that
         warranted no further action. However, the combined results of our
         review and ORP surveillance showed that Bechtel's extent of
         condition review for missing NDE records was not adequate.

         While we recognize that the number of welds missing NDE
         records represented a small percentage of total welds, the fact that
         Bechtel could not provide documentation demonstrating that all
         welds had been tested is troubling because a weld failure will
         essentially make the vessel unusable due to the inability to fix or
         repair a vessel after the start of operations.

                          Traceability of Vessel Fabrication

         In addition to missing NDE records, we found that for six of the
         seven vessels the quality assurance records were incomplete
         because all material, welding procedures, welders and NDEs were
         not traceable to the associated item. Nuclear quality standard
         requires that material and services used are appropriate for the
         nuclear activities and traceable to the items in a manner that
         assures that identification is established and maintained from initial
         receipt and fabrication up to, and including, installation and use.
         Bechtel incorporated these requirements into its Quality Assurance
         Manual for WTP. Accordingly, all vessel subcontractors were
         required to submit a weld map identifying the specific location of




Page 3                                                    Details of Finding
         each weld used in the fabrication of the vessel as well as
         information on the welding procedures, the welder, material used
         and the location of the NDE.

         However, we identified incomplete documentation regarding
         traceability of quality records for six of the seven vessels we
         reviewed, including missing or incomplete weld maps, and
         traceability to weld procedures or the welder. In addition, five
         vessels had incomplete records pertaining to traceability of the
         welding filler material used. Welding filler material is used to
         affix the pieces of the stainless steel vessel together. Bechtel's
         subcontracts state, "All records pertaining to the NDE, base
         materials, filler materials, fabrication, and inspection shall be
         traceable to the area and part inspected and be accessible for
         Buyer's (Bechtel) examination." When we requested these records,
         Bechtel officials were unable to provide them, and further
         indicated the records were not available from the subcontractors.

         ORP's earlier surveillance review also identified a missing weld
         map for the same vessel missing the NDE records for one of the
         vessel nozzles; consequently, weld filler material and weld records
         were not traceable for that vessel.

                           Positive Material Identification

         We also found that the seven vessels we reviewed did not meet
         contract requirements for PMI, which provides confirmation that
         the material used to fabricate the vessel is compatible with the
         expected operating conditions. The PMI was to be performed on
         the assembled vessel and required the subcontractor to test each
         and every component and weld. The subcontractor was also
         required to provide a PMI map of the fabricated vessel that
         identified each component and weld, showing the locations of PMI
         testing. However, rather than a map, most suppliers we reviewed
         provided a matrix of each test and the component or weld tested.
         As a limited review, we compared this matrix to the bills of
         materials and determined that two components and two welds were
         not tested on two of the vessels. Furthermore, without a PMI map,
         there is no traceability to identify the test locations of the
         components or welds on the vessel.

                      Deviation from Contractor Requirements

         Bechtel also allowed two of its subcontractors to deviate from its
         NDE contract requirements without appropriate authorization.
         These two vendors utilized ultrasonic examination to determine
         deformities in the welds. The contract required subcontractors to

Page 4                                                  Details of Finding
                     use radiography as the preferred method to examine welds that
                     make up the primary confinement for the vessel. If the contractor
                     considered it impractical to perform radiographic testing, the
                     contractor could propose ultrasonic examination to Bechtel.

                     Neither subcontractor submitted a Supplier Deviation Disposition
                     Request (SDDR) form to Bechtel to request authorization for
                     changing the approved examination method from radiography to
                     ultrasonic. The SDDR process establishes the reason for deviating
                     from the requirement and ensures that a technical engineering
                     review is performed. Rather than a SDDR, both contractors
                     submitted fabrication drawings for approval that depicted the
                     nozzles on the vessel and indicated in some instances that the NDE
                     method would be ultrasonic. When asked if this was appropriate,
                     Bechtel stated that in no case should the drawing approval process
                     be used to substantiate, or otherwise justify changes in, NDE
                     methods to code welds without submittal of an SDDR form.
                     However, this practice circumvented the SDDR process that was
                     required for each fabricator's contract. Ultrasonic testing may be
                     advantageous in some instances where weld geometry or thickness
                     impact radiographic examination results. However, the main
                     advantage of radiography is that a physical record (film) is created
                     that can be used for further analysis.

Quality Assurance    The Department and Bechtel, at the time these vessels were
Implementation and   procured, did not provide what in our view was the necessary
Oversight            oversight to ensure that Bechtel and its vessel subcontractor
                     adequately implemented the Quality Assurance Program. We
                     concluded weaknesses in quality assurance records associated with
                     the vessels occurred because Bechtel placed an overreliance on
                     inspectors, referred to as a Supplier Quality Representative (SQR),
                     located at the contractor locations where the vessels were built.
                     We found that the SQRs had not ensured that all necessary steps
                     were taken to develop and maintain essential quality assurance
                     records. Bechtel's receipt verification procedures were also limited
                     in scope and did not include a thorough review of quality
                     assurance records.

                                             Source Verification

                     We identified several weaknesses with Bechtel's quality assurance
                     process at the subcontractor locations where the vessels were built
                     even though Bechtel placed a SQR at the subcontractor locations to
                     monitor the quality of work being performed. The SQR witnessed
                     work performed and executed a progressive and final review and
                     approval of quality assurance record packages. This receipt
                     method, also known as "Source Verification," was implemented in

Page 5                                                              Details of Finding
         accordance with Bechtel's material acceptance plan that requires
         the SQR to witness inspections, examinations or tests at
         predetermined points. However, we identified several concerns
         with the source verification process:

                Bechtel's SQRs were not qualified to review specific
                attributes required by Bechtel's material acceptance plans.
                Bechtel's source verification process relied on the skills and
                knowledge of the SQR to witness welding and NDE
                activities and to verify procedural compliance and that
                workers are qualified. However, the material acceptance
                plan also required the evaluation of NDE results. We
                determined that none of the 16 SQRs were qualified to
                interpret weld NDE results, because they were not qualified
                to either a Level II or III weld inspector. Management
                noted and we agree that Bechtel's procedures did not
                require that the SQRs be qualified as weld inspectors.
                However, in our opinion, Bechtel's source verification
                program should be augmented to either review or test NDE
                film results by qualified individuals because the receipt
                inspection process does not provide for further review; and,

                Bechtel's SQRs did not ensure that complete records
                packages were compiled for each of the vessels. The SQR
                is the only individual that reviews the quality records for
                completeness and compliance with the contract. Prior to
                the release of a vessel for delivery, the SQR is responsible
                for the progressive and final review and approval of the
                supplier-generated quality records packages that
                accompany the vessel. However, the SQRs approved
                incomplete records packages that were missing weld maps,
                NDEs of welds, positive material test and other
                documentation.

                                 Receipt Verification

         Additionally, Bechtel's receipt inspection process for the vessels
         was not as robust as we would have expected. Specifically,
         Bechtel's receipt inspection process did not ensure that the vessels
         procured conformed with quality assurance record requirements
         contained in Bechtel's contract. Rather, Bechtel's inspection
         process focused primarily on reviewing for damage and
         cleanliness. The requirements for verifying receipt of quality
         assurance records were very cursory and only included verifying
         that the expected number of pages existed for each document
         category.


Page 6                                                   Details of Finding
                                Department Oversight

         The Department provided inadequate oversight over Bechtel's
         quality assurance process and did not adequately assess Bechtel's
         internal controls for oversight of its subcontractors. The
         Department's oversight of Bechtel was ineffective in identifying
         weaknesses in Bechtel's processes that contributed to the receipt of
         vessels that did not conform to contract requirements.
         Surveillances performed by the Department were not
         comprehensive enough to detect the inadequacies in Bechtel's
         source verification program and to identify the missing quality
         assurance documentation. It is recognized that ORP developed its
         Bechtel subcontractor surveillance program in response to black
         cell vessel quality assurance issues identified in 2003 with specific
         focus on reviewing work done at the subcontractor locations. ORP
         visited two black cell vessel subcontractors, Harris and Northwest
         Copper Works, in 2004. These inspections were performed to
         ensure subcontractor compliance with requirements during the
         vessel fabrication process. ORP returned to these locations in July
         2009 following the restart of black cell vessel fabrication after
         project seismic issues were resolved. To the Department's credit,
         these subsequent reviews were more extensive and involved
         reviewing procedures and other quality assurance controls.

         In addition, the Department did not ensure that Bechtel's quality
         assurance processes were sufficient and commensurate with the
         importance or complexity of the item or service being delivered.
         That is, highly complex equipment associated with a project as
         massive as WTP may require more than one method of acceptance
         to ensure conformance. Bechtel's receipt inspection program was
         unsuccessful in detecting that SQRs had not validated that the
         vessels met the specified contractual requirements before releasing
         them for delivery. Had Bechtel effectively verified conformance
         with contractual requirements, including the need to maintain
         complete quality assurance records, the error rate would likely
         have been substantially lower. We also noted that the Department
         did not ensure Bechtel's use of appropriate personnel for the
         performance of different functions in the receipt process; for
         example, welds should be verified only by qualified weld
         inspectors. Finally, the Department did not ensure that Bechtel had
         safeguards in place to identify deviations from contract
         specification. The contract required that all vessels that have any
         deviation from inspection procedures be technically justified and
         approved by Bechtel. However, there was no methodology in the
         material acceptance plan to identify NDE deviations.




Page 7                                                   Details of Finding
Other Matters   In addition to the issues identified above, we determined that
                Bechtel was paid a $15 million fee in 2003 for a vessel that did not
                conform to contract requirements because it lacked adequate
                quality assurance records.

                The Department did not take aggressive action to retrieve the
                $15 million fee payment. A letter issued to Bechtel on
                February 11, 2004, identified that the welds on the vessel had not
                been fully examined to ensure that weld defects were discovered.
                This specific requirement was included in the contract with
                Bechtel. The Department further criticized Bechtel's construction
                and acceptance testing program for not disclosing that the vessel
                had not undergone full examination prior to the setting of the
                vessel in the High Level Waste facility. The Department's letter
                noted that Bechtel had also failed to include this requirement for
                the vessel supplier. In this letter, the Department requested
                Bechtel return the $15 million fee payment by February 20, 2004.
                If not returned by that date, the letter stated that the Department
                would offset the amount against the next cost invoice submitted by
                Bechtel. In its response, dated February 18, 2004, Bechtel asserted
                that it didn't completely agree with many of the assertions of the
                Department; but concluded that a point-by-point response would
                not bring closure to the issue. As an alternative, Bechtel expressed
                its desire to discuss the issue with the Department to find a
                mutually acceptable resolution. Bechtel then submitted a letter to
                close out open issues on the vessel dated July 12, 2004. We
                requested the evidence of the resolution; however, there were no
                records of the meeting or indications that Bechtel repaid the fee.
                Department officials confirmed there was no documentation
                indicating that the fee had been repaid or offset against any
                subsequent invoices.

                In addition, we determined that a second $15 million fee payment
                was paid in 2005 for four vessels, one of which we determined was
                nonconforming because it lacked adequate quality assurance
                records. Regarding the second performance fee, at the time we
                determined the vessel was nonconforming, a different fee criteria
                applied which denied the Department the ability to recover fee for
                a nonconforming vessel after it had been installed.

Programmatic    The weaknesses we observed in the quality assurance of black cell
Impact          vessels resulted from shortcomings in the quality assurance,
                supplier qualification and oversight programs that were in place at
                the time the last black cell vessel was received in 2005.
                Management stated that a number of improvements had been made
                to these programs. However, the application and effectiveness of
                these changes could not be verified because black cell vessels have

Page 8                                                          Details of Finding
                  not been received since the changes were implemented. Without
                  ensuring that quality assurance improvements are in place and
                  operating effectively and that the necessary quality assurance
                  records are acquired, the Department may not be able to
                  demonstrate that WTP facilities are ready for operation and will
                  operate as intended. These records have significant value to the
                  Department and are required to demonstrate that WTP meets
                  project requirements. The lack of quality assurance records could
                  impact operability of WTP including the Department's ability to
                  efficiently complete WTP's mission. The lack of such records
                  could also result in delays and cost overruns to address flaws in
                  materials that lack adequate documentation. Finally, such records
                  could be used to establish a baseline to allow the Department to
                  operate the facility beyond its 40-year design life.

RECOMMENDATIONS   Although the Department has taken a number of actions to address
                  the deficiencies that we identified, we believe that additional
                  actions are necessary to verify the implementation and
                  effectiveness of the corrective actions for black cell and hard-to-
                  reach vessels and prevent unnecessary risk to the operation and
                  mission of WTP. Accordingly, we have made several
                  recommendations to strengthen the Department's quality assurance
                  processes and to recoup performance fees paid by the Department
                  for a nonconforming vessel. To address the problems in this
                  report, we recommend that the Senior Advisor for Environmental
                  Management, direct the Office of River Protection to:

                      1. Conduct an independent evaluation of Bechtel's current
                         quality assurance processes for black cell and hard-to-
                         reach area vessels to make certain the processes are
                         comprehensive and adequate for ensuring compliance with
                         all Federal requirements, and correct any identified
                         deficiencies;

                      2. Review quality assurance documentation associated with
                         black cell and hard-to-reach area vessels and verify all
                         necessary actions have been taken by Bechtel to ensure the
                         receipt of all necessary records required by the project;

                      3. Ensure Bechtel makes certain that vessel fabricator
                         suppliers and service providers possess the necessary
                         qualifications to perform the task, and that any
                         qualification deficiencies are corrected, as part of the
                         ongoing Bechtel corrective actions for black cell and hard-
                         to-reach area vessels;




Page 9                                       Recommendations and Comments
                       4. Evaluate the Department's current oversight program and
                          implement any required changes, as necessary, to ensure
                          Bechtel's quality assurance processes promptly identify
                          and remediate any less than adequate quality assurance
                          weaknesses; and,

                       5. Determine whether the $15 million performance fee
                          payment for a nonconforming vessel was returned to the
                          Department and, if not, take necessary action to recoup the
                          fee from Bechtel.

MANAGEMENT AND     The Office of Environmental Management concurred with the
AUDITOR COMMENTS   report's recommendations and its comments were generally
                   responsive to our recommendations. Management commented on
                   improvements that have been made since the last vessels were
                   delivered and it outlined a number of corrective actions recently
                   initiated. Specifically, actions are underway to evaluate process
                   improvements implemented since 2005; evaluate supplier quality
                   documentation associated with all black cell and hard-to-reach
                   vessels; ensure that Bechtel's suppliers are qualified; evaluate
                   recent process improvements on the Department's oversight
                   program; and, resolve the issue pertaining to the fee paid to
                   Bechtel for a nonconforming vessel. However, management
                   disagreed with our assertion that Bechtel's on-site inspectors
                   needed to be qualified to either a Level II or III weld inspector to
                   interpret NDE results. Management stated that technical
                   requirements do not mandate this type of qualification for the
                   personnel performing this role, and that it is sufficient that the
                   inspectors verify that another individual conducting the weld
                   examination be qualified. Specifically, management asserted that
                   technical standards require those performing NDE of welds to be
                   qualified to a Level II or III weld inspector, but does not require
                   this of anyone else.

                   We acknowledge that management's comment regarding Bechtel's
                   on-site inspectors is technically correct. However, given the
                   importance of the vessel welds to the effective performance of
                   WTP, we believe that it would be prudent that the on-site
                   inspectors be fully qualified to interpret NDE results in order to
                   provide additional assurance that the vessels received have been
                   fabricated per specifications. Bechtel's quality assurance plan
                   relies almost exclusively on the inspectors for material acceptance
                   procedures; and the material acceptance plan specifically identifies
                   evaluation of weld examination results to be performed.
                   Therefore, we believe the individual performing that role should be
                   qualified to interpret the results of the weld examination. This



Page 10                                                                    Comments
          additional level of assurance is consistent with the principles in
          Quality Assurance Program Requirements for Nuclear Facilities,
          which suggest that the extent of verification activities be
          commensurate with the importance of the items being supplied and
          that individuals who verify performance of work activities for the
          purpose of acceptance be qualified to perform the inspection tasks.

          Management's comments are included in Appendix 3.




Page 11                                                         Comments
Appendix 1

OBJECTIVE     To determine whether the Department of Energy (Department) was
              meeting quality assurance requirements for the fabrication of
              "black cell" and "hard-to-reach" processing vessels for the Waste
              Treatment and Immobilization Plant (WTP).

SCOPE         We conducted this audit from March 2011 to April 2012. We
              conducted work at Department Headquarters in Washington, DC,
              and at the Hanford Site in Richland, Washington. The scope of the
              audit was to review procurement packages related to vessels that
              exist in black cells or in areas that were hard-to-reach in WTP.
              Our review focused on the issues contained in the allegation made
              to the Office of Inspector General.

METHODOLOGY   To accomplish the audit objective, we:
                      Obtained and reviewed Bechtel National, Inc.'s (Bechtel)
                      Quality Assurance Manual and policies and procedures to
                      determine how Bechtel determines vessel fabrication
                      contract requirements and how it ensures that these
                      requirements are met;

                      Obtained and reviewed procurement documentation for
                      seven vessels that were selected based on a judgmental
                      sample determined by risk associated with previous
                      reviews;

                      Researched Federal and Departmental regulations, policies
                      and procedures; and,

                      Interviewed key personnel in the Office of Environmental
                      Management; Office of Health, Safety and Security;
                      Office of River Protection; and, Bechtel.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objective. We believe that the
              evidence obtained provides a reasonable basis for our findings and
              conclusions based on our audit objective. Accordingly, we
              assessed significant internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective. In
              particular, we assessed the Department's implementation of the
              GPRA Modernization Act of 2010 and determined that it had
              established performance measures for project management.
              Because our review was limited, it would not necessarily have



Page 12                                   Objective, Scope and Methodology
Appendix 1 (continued)

                    disclosed all internal control deficiencies that may have existed at
                    the time of our audit. We did not rely upon computer-processed
                    data to accomplish our audit objective.

                    An exit conference was held with Department officials on April 12,
                    2012.




Page 13                                         Objective, Scope and Methodology
Appendix 2

                               PRIOR AUDIT REPORTS


     Audit Report on The Procurement of Safety Class/Safety Significant Items at the
     Savannah River Site (DOE/IG-0814, April 2009). The audit found that the Department
     of Energy (Department) had procured and installed safety-class and safety-significant
     structures, systems and components that did not meet The American Society of
     Mechanical Engineer's Quality Assurance Program Requirements for Nuclear Facilities
     quality standards. These failures occurred because Departmental controls were not
     adequate to prevent and/or detect quality assurance problems. Additionally, management
     did not effectively communicate quality assurance concerns between several
     Departmental program elements operating at the Savannah River Site. The procurement
     and installation of these nonconforming components resulted in cost increases. In
     general, the internal control weaknesses we discovered could have permitted, without
     detection, the procurement and installation of safety-critical components that did not meet
     quality assurance standards. In a worst case scenario, undetected, nonconforming
     components could fail and injure workers or the public.

     Audit Report on Quality Assurance Standards for the Integrated Control Network at the
     Hanford Site's Waste Treatment Plant (DOE/IG-0764, May 2007). The audit found that
     the Waste Treatment Plant control system acquired by the Department did not meet
     applicable quality assurance standards, specifically, those required for "an activity
     affecting the immobilization of radioactive high-level waste." As a result, the system
     does not meet the stringent procedures, plans, specifications or work practices associated
     with nuclear quality standards. Under the circumstances, we concluded that the
     Department cannot be sure that the Waste Treatment Plant's current system is suitable for
     processing nuclear waste.




Page 14                                                                  Prior Audit Reports
Appendix 3




Page 15      Management Comments
Appendix 3 (continued)




Page 16                  Management Comments
Appendix 3 (continued)




Page 17                  Management Comments
Appendix 3 (continued)




Page 18                  Management Comments
Appendix 3 (continued)




Page 19                  Management Comments
Appendix 3 (continued)




Page 20                  Management Comments
Appendix 3 (continued)




Page 21                  Management Comments
                                                                    IG Report No. DOE/IG-0863

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the audit or inspection would have been helpful to the reader in
       understanding this report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's overall
       message more clear to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report which would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we
       have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy/gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
